D-2008-004                October 24, 2007




Government Purchase Card Controls at DoD
            Schools in Guam
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704




Acronyms

DoDDS                 Department of Defense Dependents School
DoDEA                 Department of Defense Education Activity
DSO                   District Superintendent’s Office
FAR                   Federal Acquisition Regulation
                               INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                          October 24, 2007

MEMORANDUM FOR DIRECTOR, DOD EDUCATION ACTIVITY
               DIRECTOR, DEPARTMENT OF DEFENSE DEPENDENTS
                 SCHOOL - PACIFIC
               DISTRICT SUPERINTENDENT, GUAM DISTRICT

SUBJECT: Report on Government Purchase Card Controls at DoD Schools in Guam
         (Repoli No. D-2008-004)


         We are providing this report for your information and use. No written response to
this repoli was required, and none was received. Therefore, we are publishing this repOli
in final form.

         We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James 1. Kornides at (614) 751-1400, ext. 211 or Mr. John K. Issei at (614)
751-1400, ext. 212. See Appendix C for the report distribution. The team members are
listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:


                                      (J~a.m~
                                      For Paul J. Granetto, CPA
                                      Assistant Inspector General
                                 for Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2008-004                                                  October 24, 2007
  (Project No. D2007-D000FJ-0038.003)

          Government Purchase Card Controls at DoD Schools in 

                               Guam 


                                 Executive Summary 


Who Should Read This Report and Why? DoD Education Activity purchase
cardholders and approving officials should read this report because it discusses the
administration and internal controls for the Guam District Government Purchase Card
Program.

Background. Title 10, United States Code Section 2784 requires the DoD Inspector
General to perform periodic audits to identify: potentially fraudulent, improper, and
abusive uses of purchase cards; any patterns of improper cardholder transactions; and
categories of purchases that should be made by means other than a purchase card.

The Department of Defense Education Activity - Pacific Area Purchase Card Program
includes its headquarters office in Okinawa and its school districts in Okinawa, Japan,
Korea, and Guam. For this report, we reviewed only the Guam District. Guam
cardholders incurred approximately $460,000 in charges against their purchase cards for
the period of review, September 1, 2005 through August 30, 2006.

Results. For the transactions we reviewed, we found that the Guam District effectively
managed its Government Purchase Card Program. We examined 85 Government
Purchase Card transactions (valued at a total of $77,112) and found only minor
discrepancies. The school district generally conformed to applicable DoD and DoD
Education Activity regulations governing use of the Government Purchase Card for the
transactions we sampled.

The DoD Education Activity - Guam District’s controls were adequate. We identified no
material weaknesses in the administration of the Government Purchase Card Program.
See the results of our internal control assessment in the “Review of Internal Controls”
section on page 2.

Management Comments. We provided a draft of this report on August 23, 2007. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents 


Executive Summary                                                             i


Background                                                                    1


Objectives                                                                    2


Review of Internal Controls                                                   2


Finding 

      Controls over the Use of the Government Purchase Card - Guam District   3


Appendixes
      A. Scope and Methodology                                                6

      B. Prior Coverage                                                       7 

      C. Report Distribution                                                  9 

Background
    The DoD Office of Inspector General is required by Title 10, United States Code
    Section 2784, “Management of Purchase Cards,” January 19, 2004, to perform
    periodic audits of the DoD Purchase Card Program to identify:

           (A) potentially fraudulent, improper, and abusive uses of purchase cards;

           (B) any patterns of improper cardholder transactions, such as purchases of
           prohibited items; and

           (C) categories of purchases that should be made by means other than a
           purchase card in order to better aggregate purchases and obtain lower
           prices.

    Use of the Government Purchase Card. The Government Purchase Card is the
    preferred method to purchase and to pay for micro-purchases, according to
    Federal Acquisition Regulation (FAR) 13.2, “Actions At or Below the Micro-
    Purchase Threshold,” March 22, 2007. FAR 13.301, “Government-wide
    Commercial Purchase Card,” March 22, 2007 defines the use of the purchase card
    as a procurement and payment tool for micro-purchases. FAR 2.101
    “Definitions,” August 26, 2005 describes a “micro-purchase” as an acquisition of
    supplies or services in which the aggregate amount does not exceed $2,500,
    except for construction, where the limit is $2,000. When used as an ordering and
    payment mechanism, contractors may bill against the card. The vendor directly
    bills the purchase card account, rather than issuing an invoice to the agency.

    DoD Education Activity. The DoD Education Activity (DoDEA) is a
    subordinate field activity of the Under Secretary of Defense for Personnel and
    Readiness. DoDEA operates two distinct school systems: DoD Dependents
    Schools (DoDDS) and DoD Domestic Dependent Elementary and Secondary
    Schools. DoDEA operates schools throughout the world and provides education
    from preschool through grade 12 for eligible dependents of Armed Forces
    members and Federal Government civilians.

    DoDDS-Pacific. DoDEA has three areas: DoDDS-Pacific, DoDDS-Europe, and
    DoD Domestic Dependent Elementary and Secondary Schools. We are reviewing
    purchase card use in the Pacific Area, which includes three overseas school
    districts (Okinawa, Japan, and Korea) and a domestic school district (Guam). The
    Pacific area headquarters is located at Torri Station, Okinawa, and the Guam
    District headquarters is located at Agana Heights, Guam.




                                        1

Objectives 

     Our overall audit objective was to assess whether use of the Government
     Purchase Card at Department of Defense Education Activity - Pacific was in
     compliance with applicable laws and regulations. This report addresses the Guam
     District portion of the audit. See Appendix A for a discussion of the scope and
     methodology. See Appendix B for prior coverage related to the objectives.


Review of Internal Controls
     Guam District internal controls over the administration of its purchase cards were
     adequate as they applied to our audit objective. Our review of 85 purchase card
     transactions disclosed no material internal control weaknesses.




                                          2

            Controls over the Use of the Government
            Purchase Card - Guam District
            The transactions we reviewed showed that the Guam District effectively
            managed its Government Purchase Card Program. We examined 85
            purchase card transactions: 25 transactions from the District
            Superintendent’s Office (DSO) cardholders and 60 transactions from
            cardholders at the district’s four schools. The total value of the 85
            transactions was $77,112. Except for a few minor instances, we
            concluded that the Guam District complied with applicable DoD and DoD
            Education Activity (DoDEA) regulations concerning use of the
            Government Purchase Card. Our review of the purchase card transactions
            did not identify any material internal control weaknesses.


Cardholders and Approving Officials in Guam
     The DSO and three of its schools each had one primary and one alternate
     authorized cardholder. The remaining school had only one authorized cardholder.
     All four schools each had one primary and one alternate approving official on
     site, and in every case the approving official was either the principal or assistant
     principal of the school. The DSO had one primary and one alternate approving
     official; both were located at the DSO.


Review of Internal Controls
     We reviewed the internal control environment for the Guam District.
     Specifically, we tested the following key elements:

     Span of Control. The “Department of Defense Government Charge Card
     Guidebook For Establishing and Managing Purchase, Travel, and Fuel Card
     Programs,” January 20, 2006, requires that not more than seven cardholders exist
     for each approving official. We found that the Guam District span of control was
     appropriate, with two approving officials (one primary and one alternate) for each
     primary cardholder. We also found that the cardholder’s approving official
     worked in the same school. In each school, the cardholder was the supply
     technician, and the approving official was either the principal or an assistant
     principal. The DSO had one primary cardholder, and the approving official was
     the assistant superintendent. We concluded that the Guam District had an
     appropriate span of control.

     Training. Properly trained individuals are necessary for a successful
     Government Purchase Card Program. According to the DoD Government Charge
     Card Guidebook, the agency program coordinator is responsible for overseeing
     and tracking training of all purchase card program participants. The DoDEA
     publication, “Government Purchase Card Training Guide,” August 1, 2005,
     requires three mandatory training courses for participants in its Government
                                          3

    Purchase Card Program. The three courses are: the Defense Acquisition
    University Online Government Purchase Card Tutorial; Section 508 training; and
    DoDEA-unique training for agency program coordinators.

    Guam District cardholders and approving officials met the training requirements.
    We reviewed each cardholder’s and approving official’s training file and found
    that Guam District cardholders and approving officials were current in their
    training.

    Purchasing and Reviewing Authorities. The DoD Government Charge Card
    Guidebook considers support from the highest level of management to be a strong
    internal control. The approving official at each of the Guam District schools was
    either the principal or the assistant principal of the school. The approving official
    for the DSO was the assistant superintendent. The assistant superintendent and
    principals are the highest management officials within the Guam District. High-
    level management was appropriately involved in the oversight of the Government
    Purchase Card Program.

    Annual Reviews. DoDEA Regulation 8000.1 “Use of the Government-wide
    Commercial Purchase Card,” February 18, 2005, requires that program
    coordinators perform annual audits of their Government Purchase Card Programs.
    In 2007 the agency program coordinator conducted the reviews for the Guam
    District. The reviews of each of the schools and the DSO identified some minor
    areas of concern. These effective reviews showed that the Pacific Area agency
    program coordinator has appropriate oversight of the Government Purchase Card
    Program for the Guam District.

    Separation of Duties. Maintaining the proper separation of duties is a mandatory
    internal control. The DoD Government Charge Card Guidebook states that key
    duties such as making purchases, authorizing payments, certifying funding, and
    reviewing and auditing functions will be assigned to different individuals to
    minimize the risk of loss to the Government. In the Guam District, documents
    showed that duties were properly separated between the purchasing, approving,
    funding and auditing functions.


Purchase Card Transaction Results
    We reviewed 85 purchase card transactions from the DoDEA Guam District to
    assess compliance with applicable laws and regulations. The 85 transactions
    included 25 transactions by the DSO and 15 transactions at each of the district’s
    four schools.

    For each of these transactions, we verified whether the transaction satisfied the
    following five attributes of a valid purchase card transaction:
    Determination of a legitimate Government purchase. We determined whether
    each transaction was a legitimate Government purchase by reviewing either
    DoDEA Form 8052, “Request for Approval Prior to Government Purchase Card
    Purchase” or DoD Dependents Schools Pacific “Government Purchase Card Pre-
    Approval Purchase Form.” Guam District cardholders were required to obtain

                                          4

    prior approval from the approving official before making a credit card purchase.
    Appropriate officials approved all of the 85 sampled transactions from the Guam
    District. Our sample was designed to select some unusual purchases which may
    not have been a legitimate use of the purchase card. However, our review found
    that each of the purchases was appropriate. For example, we reviewed the rental
    of a tour bus that was used for 17 days. The assistant superintendent of the
    schools explained that the bus was used to meet the immediate needs of a special
    education student who was new to the school. The school’s existing buses were
    not able to accommodate the student. Once the district officials identified the
    problem and satisfied the immediate need, they issued a transportation contract to
    obtain Americans with Disabilities Act-compliant transportation for the student.
    This purchase was appropriate based on the student’s needs and was adequately
    documented.
    Independent receipt and acceptance. Generally, we found that district
    cardholders adhered to the requirement for independent receipt and acceptance,
    but we found exceptions to this control. We found that the cardholder was also
    the requestor for five of the transactions in our sample. However, because the
    school’s cardholder was also the supply technician, these occurrences were not
    unexpected. In addition, the cardholder made many purchases at the vendor’s
    location. It is normal for the cardholder to receive purchased items at the point of
    sale because the items are paid for and received immediately. As such,
    independent receipt and acceptance are not expected. In all cases, the purchases
    satisfied a legitimate need, were appropriately approved and were accounted for.
    Physical control and accountability over pilferable and other vulnerable
    property. At each school, we tested and verified the existence of items from the
    sampled transactions that we considered to be pilferable property, including
    digital cameras and office equipment. The schools in the Guam District had
    implemented sufficient controls to maintain accountability over those types of
    pilferable property. School officials responsible for the property issued the items
    to teachers through a hand receipt system. We were able to physically verify all
    sampled pilferable property at each school and the DSO.
    Cardholder reconciliation. Cardholders are required to reconcile and approve
    their monthly statements. U.S. Bank provides monthly statements to cardholders
    and approving officials. Our audit disclosed that all monthly statements reviewed
    were appropriately reconciled and approved.
    Approving official review. Approving officials are required to pre-approve
    purchase card transactions. Approving officials are also required to review and
    sign the monthly statements. We did not find any exceptions to this requirement
    for the 85 reviewed transactions and the associated cardholder monthly
    statements.

Conclusion
    Guam District internal controls over the use of its Government Purchase Card
    Program were effective. Our review of 85 purchase card transactions revealed
    proper compliance with applicable regulations and no material internal control
    weaknesses.


                                         5

Appendix A. Scope and Methodology 

   We conducted this performance audit in accordance with generally accepted
   government auditing standards. Those standards require that we plan and perform
   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our findings and conclusions based on our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and
   conclusions based on our audit objectives.

   The audit assessed whether DoDEA-Pacific, Guam District’s use of the
   Government Purchase Card was in compliance with applicable laws and
   regulations. We also reviewed internal controls over the purchase card program.

   We judgmentally selected 85 purchase card transactions from the Guam District.
   We selected this sample from transactions made during the period of
   September 1, 2005 through August 30, 2006. During this period, the Guam
   District had 1,016 purchase card transactions, totaling approximately $460,000.
   The 85 transactions included 25 transactions from the Guam District
   Superintendent’s Office and 15 transactions from each of the 4 Guam District
   schools.

   To perform this audit, we examined documents at the Guam District
   Superintendent’s Office on the Naval Hospital Annex in Guam. The documents
   we examined included: purchase card requests, vendor invoices or receipts,
   purchase card logs, receiving reports, U.S. Bank purchase card monthly
   statements, training documents, and other documents as needed for each of our
   sample items. Additionally, we visited each of the four schools in our sample to
   verify the existence of property purchased and interviewed cardholders and
   approving officials as needed.

   We performed this audit from October 2006 through August 2007. We used
   judgmental sampling techniques to select the transactions for our review; as a
   result we have not made statistical projections. Additionally, the scope of our
   audit was limited in that we did not review the management control program.

   Use of Computer-Processed Data. We did not evaluate the controls of the U.S.
   Bank system that processes purchase card transactions. The DoDIG Data Mining
   Division provided the purchase card data to us. We assessed data reliability by
   comparing the transaction data provided to source documents in the transaction
   files. These source documents included vendor invoices and monthly statements
   from U.S. Bank. The lack of an evaluation of the controls over computer-
   processed data did not affect the results of the audit.

   Use of Technical Assistance. The DoDIG Data Mining Division provided us
   with the DoDEA-Pacific Purchase Card transactions.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage on one aspect of the DoD financial management high-risk area.

                                        6

Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have issued 15 reports
    discussing the use of Government Purchase Cards. Unrestricted GAO reports can
    be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports.


GAO
    Report No. GAO-04-430, “Contract Management: Agencies Can Achieve
    Significant Savings on Purchase Card Buys,” March 2004

    Report No. GAO-04-156 “Purchase Cards: Steps Taken to Improve DOD
    Program Management, but Actions Needed to Address Misuse,” December 2003

    Report No. GAO-03-292, “Purchase Cards: Control Weaknesses Leave the Air
    Force Vulnerable to Fraud, Waste, and Abuse,” December 2002

    Report No. GAO-02-1041, “Purchase Cards: Navy is Vulnerable to Fraud and
    Abuse but is Taking Action to Resolve Control Weaknesses,” September 2002

    Report No. GAO-02-732, “Purchase Cards: Control Weaknesses Leave Army
    Vulnerable to Fraud, Waste, and Abuse,” June 2002


DoD IG
    Report No. D-2007-043, “Controls Over the Army, Navy, and Air Force Purchase
    Card Programs,” January 10, 2007

    Report No. D-2006-124, “Management of the Purchase Card Program at the
    North American Aerospace Defense Command and United States Northern
    Command,” September 28, 2006

    Report No. D-2006-099, “Purchase Card Program Controls at Selected Army
    Locations,” July 21, 2006.

    Report No. D-2005-006, “Overseas Purchase Card Transactions by DoD
    Dependents Schools-Europe,” October 20, 2004

    Report No. D-2004-104, “Purchase Card Use and Contracting Action at the U.S.
    Army Corps of Engineers, Louisville District,” July 27, 2004

    Report No. D-2004-096, “Controls Over Purchase Cards at Naval Medical Center
    San Diego,” June 29, 2004

                                      7

Report No. D-2004-076-T, “How to Save the Taxpayers Money Through Prudent
Use of the Purchase Card,” April 28, 2004

Report No. D-2004-016, “Purchase Card Use at the Space and Naval Warfare
Systems Command, Information Technology Center, New Orleans, Louisiana,”
November 14, 2003

Report No. D-2004-002, “Selected Purchase Card Transactions at Washington
Headquarters Services and Civilian Personnel Management Service,” October 16,
2003

Report No. D-2003-109, “Summary Report on the Joint Review of Selected DoD
Purchase Card Transactions, June 27, 2003




                                  8

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
   Director, DoD Education Activity
   Director, Department of Defense Dependents School – Pacific
   District Superintendent, Guam District

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on Defense, Committee on Appropriations
  House Committee on Armed Services
  House Committee on Oversight and Government Reform
  House Subcommittee on Government Management, Organization, and Procurement,
      Committee on Oversight and Government Reform
  House Subcommittee on National Security and Foreign Affairs,
      Committee on Oversight and Government Reform




                                          9

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
John K. Issel
Pamela S. Varner
William C. Blouvet
Benjamin M. Howison
Ellen Kleiman-Redden
